              Audit Report



Processing Internal Revenue Service
  Alerts for Supplemental Security
          Income Recipients




      A-03-13-13106 | December 2013
MEMORANDUM


Date:      December 26, 2013                                                  Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Processing Internal Revenue Service Alerts for Supplemental Security Income Recipients
           (A-03-13-13106)

           The attached final report presents the results of our audit. Our objectives were to determine
           whether the Social Security Administration was properly processing the Internal Revenue
           Service’s 1099 alerts and appropriately adjusting benefit amounts for Supplemental Security
           Income recipients.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Processing Internal Revenue Service Alerts for Supplemental
Security Income Recipients
A-03-13-13106
December 2013                                                             Office of Audit Report Summary

Objective                                 Our Findings

To determine whether the Social           SSA’s processing of IRS alerts needs improvement. SSA staff did
Security Administration (SSA) was         not develop some cases for SSI recipients with significant income
properly processing the Internal          and resources, which made them ineligible for benefits. We
Revenue Service’s 1099 alerts and         determined that 20 of the 50 sample recipients were overpaid
appropriately adjusting benefit           $237,125 because SSA’s systems did not post an alert to the
amounts for Supplemental Security         Supplemental Security Record for the IRS code assigned. As a
Income (SSI) recipients.                  result, field office staff was not always aware the recipients had
                                          significant income and resources. Projecting these results to our
Background                                population, we estimate SSA may have overpaid 1,014 SSI
                                          recipients about $12 million in benefits. Although our review was
The SSI program provides cash             for TY 2010 IRS data, based on our findings, we would expect
assistance to people who are aged,        similar results if we reviewed alerts from other tax years.
blind, or disabled and whose income
and resources are limited. Since SSI      Furthermore, SSA did not always develop IRS alerts timely to
eligibility is based on need, SSA must    recover potential overpayments. While SSA had an opportunity to
be aware of any changes in recipients’    develop cases and assess possible overpayments before
income or resources.                      administrative finality rules apply, 19,170 (27 percent) of the
                                          70,457 alerts we identified in December 2011 were still pending as
The Spending Reduction Act of 1984        of April 2013. Further, SSA coded 1,401 of these pending alerts as
provides for SSA to receive financial     high-profile redeterminations, indicating the alerts were more likely
information from the Internal Revenue     to result in overpayments.
Service (IRS) to help detect unreported
nonwage information, such as security     Our Recommendations
trades, winnings, property sales, and     We recommend that SSA:
pensions. When IRS records indicate a
recipient may have unreported income      1. Review the 20 sample cases we determined had overpayments
or resources, SSA systems generate an        and the remaining 2,485 cases from the sample population to
alert, and annotate the recipient’s          ensure benefits are appropriately adjusted.
benefit record. SSA field office staff    2. Based on the review of the TY 2010 cases, assess whether the
develops these alerts by verifying the       IRS data for TYs 2011 and 2012 should be developed for those
information with the recipient or the        cases where there is significant income and resources reported.
financial institution and adjusts or
terminates the benefits, if warranted.    3. Review its existing statistical profiling model to determine
                                             whether cases with significant income and resources are more
                                             likely to lead to an overpayment and should be sent to a field
                                             office for development.
                                          4. Revise the profiling criteria for SSI couples with income above
                                             the tolerance to allow these cases to be included as part of the
                                             profiling model to determine the probability of an overpayment.

                                          SSA agreed with our recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
     Redeterminations and Limited Issue Reviews ...........................................................................2
     Administrative Finality and Diligent Pursuit .............................................................................2
     Internal Revenue Service Data...................................................................................................3
     Methodology ..............................................................................................................................3
Results of Review ............................................................................................................................3
     Sample Results ...........................................................................................................................4
           Internal Revenue Service Code S ........................................................................................6
           Internal Revenue Service Codes for Couples ......................................................................7
     Timeliness of Developing IRS Alerts ........................................................................................8
Conclusions ......................................................................................................................................9
Recommendations ..........................................................................................................................10
Agency Comments .........................................................................................................................10
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sample Results .................................................................................................... B-1
Appendix C – Internal Revenue Service Case Codes ................................................................ C-1
Appendix D – Agency Comments .............................................................................................. D-1
Appendix E – Major Contributors...............................................................................................E-1




Processing of Internal Revenue Service Alerts (A-03-13-13106)
ABBREVIATIONS
Act                  Social Security Act

C.F.R.               Code of Federal Regulations

HEP                  High Error Profile

IRS                  Internal Revenue Service

OQP                  Office of Quality Performance

POMS                 Program Operations Manual System

SSA                  Social Security Administration

SSI                  Supplemental Security Income

SSN                  Social Security Number

SSR                  Supplemental Security Record

TY                   Tax Year

U.S.C.               United States Code




Processing of Internal Revenue Service Alerts (A-03-13-13106)
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) was properly
processing the Internal Revenue Service’s (IRS) 1099 alerts and appropriately adjusting benefit
amounts for Supplemental Security Income (SSI) recipients.

BACKGROUND
SSA administers the SSI program under title XVI of the Social Security Act. 1 SSI provides cash
assistance to people who are aged, blind, or disabled with limited income and resources. 2 Since
SSI eligibility is based on need, SSA must be aware of any changes in recipients’ income or
resources. The Spending Reduction Act of 1984 3 provides for SSA to receive financial
information from the IRS to help detect unreported non-wage information, such as interest,
security trades, winnings, property sales, and pension income. 4

Through the IRS interface process, SSA prepares a finder file of recipients who are receiving SSI
and submits the file to the IRS. SSA uses the information it obtains from the IRS interface
match to detect unreported or incorrectly reported income or resources that may affect an
individual’s eligibility or payment. 5 SSA uses such established criteria as tolerances and
statistical profiling to minimize the burden on field office staff and SSI recipients by reducing
the number of unproductive alerts. SSA processes the income and resource information through
an interface operation, assigns an IRS code to indicate whether the amount of the income and/or
resource is above or below tolerances, and generates an alert. 6 The tolerance is $61 or more for
resources and $1,001 or more for income (except for an SSI couple). 7 For instance, if a record
has income only, and that income is equal to or above the tolerance, the system will assign IRS
code B, and an alert will post to the recipient’s Supplemental Security Record (SSR). If a record
contains income that is below the tolerance, the system assigns IRS code K, and an alert is not
generated. If a record contains income for a couple that exceeds the tolerance but has no
resource information, the system assigns IRS code R and does not generate an alert.




1
    Social Security Act § 1601 et seq, 42 U.S.C. 1381 et seq; see also 20 C.F.R § 416.101 et seq.
2
    Social Security Act § 1611, 42 U.S.C. 1382; see also, SSA, POMS, SI 00501.001 (January 18, 2005).
3
 Deficit Reduction Act of 1984, Pub. L. 98-369, Division B – Spending Reduction Act of 1984, Title VI, Subtitle C, §
2651, 98 Stat. 494, 1147.
4
 Id. See also, JCS-41-84, General Explanation of the Revenue Provisions of the Deficit Reduction Act of 1984 (H.R.
4170, 98TH Congress; Public Law 98-369), IV. (B), Prepared by the Staff of the Joint Committee on Taxation, p.
1218 (December 31, 1984).
5
    SSA and the IRS conduct the match three times each year in March, May, and August.
6
    SSA, POMS, SI 02310.045 (May 8, 2012) See Appendix C for a description of the IRS case codes.
7
 Id. at A.4 - SSI couple cases are married spouses living in the same household who are both eligible for SSI
payments or eligible individuals with ineligible spouses.



Processing of Internal Revenue Service Alerts (A-03-13-13106)                                                     1
SSA then runs records that exceed the tolerances through a statistical profiling module to
determine the probability of an overpayment. The system assigns each recipient a score based on
the estimated overpayment. Based on the assigned score, the system ranks recipients from
highest to lowest risk for an overpayment and assigns a diary (5B or 5H) 8 to the top 25 percent.
A 5B diary contains information regarding winnings, prizes, unemployment compensation,
interest, dividends, rents, etc., while a 5H diary contains data about pensions, annuities, and
individual retirement accounts. SSA field office staff develops the alerts by verifying the
information with recipients or financial institutions and adjusting or terminating benefits as
warranted.

For recipients ranked in the bottom 75 percent, the system reassigns an IRS code S because of
the low profile score, even though they are above the tolerance. When the system reassigns an
IRS code S, it does not generate an alert to field office staff for case development. This can
result in cases not being alerted that have income or resources exceeding the amount allowable to
be eligible under the SSI program.

Redeterminations and Limited Issue Reviews
A redetermination is a review of a recipient or couple’s non-medical eligibility factors, such as
income, resources, and living arrangements, to determine whether the recipient is still eligible
for, and receiving, the correct SSI payment. 9 Using specific case characteristics, SSA
categorizes redeterminations as either high-error (HEP), middle-error, or low-error profile
depending on the likelihood of an error. 10 Limited issue cases require that SSA staff develop a
specific issue or event without conducting a redetermination. SSA processes 5B and 5H diaries
as a limited issue or a full redetermination.

Administrative Finality and Diligent Pursuit
The Agency’s administrative finality policy prevents recovery of overpayments that occurred
more than 2 years earlier unless staff finds that fraud occurred or similar fault applies. 11 Similar
fault exists when there is no fraudulent intent and a wide discrepancy exists between new data
and the data previously reported by a recipient as well as when other criteria are met. 12 When
SSA staff pursues alerts within the established timeframe, the Agency can recover overpayments
that occurred up to 2 years before the date of the alert. When staff does not pursue alerts within
the established timeframe, SSA can only recover overpayments that occurred 1 year before the




8
    SSA uses the terms “alerts” and “diaries” interchangeably.
9
    SSA, POMS, SI 02305.001-A (October 4, 2007).
10
     SSA, POMS, SI 02305.013 B.2 (June 14, 2010).
11
     SSA, POMS, SI 04070.010F.4 (September 9, 2011).
12
     SSA, POMS, SI 04070.020B.1 (March 2, 2012) discusses other criteria needed to establish similar fault.



Processing of Internal Revenue Service Alerts (A-03-13-13106)                                                 2
date of the alert for any reason, and 2 years if for good cause, unless the case involved fraud or
similar fault. 13

Internal Revenue Service Data
In Tax Year (TY) 2010, the IRS reported that approximately 685,000 SSI recipients received
about $3.4 billion in income and resources. The IRS reported that these recipients received
income and resources ranging from $1 to $1.5 billion (see Table 1). SSA did not generate alerts
for about 615,000 (90 percent) recipients with possible income and resources totaling about
$2.8 billion. However, the Agency did generate alerts for about 70,000 (10 percent) recipients
with income and resources totaling about $610 million. The IRS reported that these recipients
received income and resources ranging from $61 to $62 million. The average amount of the
income and resources was $8,700, and the median was $362.

                                        Table 1: TY 2010 IRS Data
            Alerts                                       Income      Resources      Total
           Generated        Recipients      Percent     (millions)   (millions)   (millions)
              No             614,489          90          $413        $2,418       $2,831
               Yes            70,457           10           112         499           611
              Total           684,946         100           $525      $2,917        $3,442

Methodology
To meet our objective, we identified 2,535 recipients who may have received $100,000 or more
in income and resources, totaling about $2.6 billion, in TY 2010. We randomly selected a
sample of 50 of the 2,535 recipients with income and resources totaling about $13.7 million.
The IRS reported that the recipients received income and resources ranging from $100,000 to
about $1.3 million. We reviewed SSA’s records and LexisNexis to determine whether SSA staff
resolved the alerts and posted overpayments accordingly. If staff had not developed the alerts,
we determined the potential overpayments that occurred from January 2010 through January
2013. (See Appendix A for our scope and methodology.)

RESULTS OF REVIEW
SSA’s IRS alert process needs improvement. Our sample results indicated that SSA did not
develop some cases for SSI recipients with significant income and resources reported in
TY 2010, which made them ineligible for benefits. We determined that 20 of the 50 sample
recipients were overpaid $237,125 because the IRS code SSA assigned did not post an alert to
the SSR. As a result, field office staff was not always aware the recipients had significant
income and resources. Projecting these sample results to our population, we estimate that SSA


13
     SSA, POMS, SI, SI 04070.010 F.4 (September 9, 2011).



Processing of Internal Revenue Service Alerts (A-03-13-13106)                                        3
may have overpaid about $12 million in benefits to 1,014 SSI recipients. 14 Although our review
was for TY 2010 IRS data, based on our findings, we would expect similar results if we
reviewed alerts from other TYs.

Furthermore, SSA did not always timely develop IRS alerts to recover potential overpayments.
While SSA had an opportunity to develop cases and assess possible overpayments before
administrative finality rules applied, 19,170 (27 percent) of the 70,457 alerts we identified in
December 2011 were still pending as of April 2013. Further, SSA had coded 1,401 of these
pending alerts as high-profile redeterminations, indicating the alerts were more likely to result in
overpayments.

Sample Results
Of the 50 randomly sampled cases with a total of about $13.7 million in income and resources,
we found the following.
                                                                      Figure 1: Sample Results
•      In 20 cases (40 percent), recipients
       may have been overpaid
       $237,125 in SSI because their
       income and resources made them
       ineligible. The overpayments
       ranged from $1,519 to $25,262.
•      In 10 cases (20 percent), SSA did
       not develop the cases, but we
       determined about $2.7 million in
       income and resources was excluded
       because the amounts did not count
       in determining eligibility and
       payment amount 15 or did not belong
       to the recipients.
•      In 10 cases (20 percent), SSA developed the cases and assessed $90,021 in overpayments.
       The IRS reported the recipients received about $3.3 million in income and resources.
•      In 10 cases (20 percent), SSA developed the cases and determined that about $2.5 million in
       income and resources was excluded or did not belong to the recipients.

As shown in Table 2, the 20 recipients with overpayments received about $5.1 million in income
and resources by selling securities and real property 16 as well as with gambling winnings, prizes,
rental income, and partnership shares. SSA did not develop 19 of the 20 cases because the


14
     See Appendix B for our sample results.
15
     SSA, POMS, SI 00810.007 (September 26, 2011) and SI 01110.210 (December 15, 2008).
16
     The sale was for investment property, which is countable toward the income limit.



Processing of Internal Revenue Service Alerts (A-03-13-13106)                                        4
system assigned IRS codes that did not generate an alert even though the income and resources
reported by the IRS for the recipients exceeded $100,000. Specifically, 17 cases were assigned
IRS code S, which indicated that the income and resources were above the tolerance, but the
score received during the profiling module was low. Two cases were assigned IRS code R,
which indicated that the couples had income that exceeded the tolerance, but no resources were
reported. One case was assigned an IRS code G, which indicated that resources exceeded the
tolerance, but income was below the tolerance. We discuss the IRS coding process in the next
section.

                              Table 2: Type of Income and Resources
     Type of Income or            IRS              IRS           IRS     Total Income and
         Resources               Code S           Code R        Code G   Resource Amount
    Security trades                 9                             1         $3,447,267
    Prizes and winnings             3                2                          993,108
    Property sales                  3                                           425,000
    Partnership shares              1                                           152,898
    Rent                            1                                            39,505
            Total                    17              2            1          $5,057,778

Below are examples of cases where the system did not post an alert, and SSA staff had not
assessed any overpayments before our audit.

•   A recipient’s spouse received $141,000 in gambling winnings from a casino. The name,
    Social Security number (SSN), and address shown on the tax form used to report the
    gambling winnings matched the SSR. Because SSA’s system assigned an IRS code R, it did
    not post an alert to the recipient’s SSR. SSA records showed staff conducted a
    redetermination in 2011; however, the recipient did not self-report the gambling winnings
    and continued receiving benefits. We estimated a $6,600 overpayment.

•   A recipient received about $500,000 for the sale of securities. The name, SSN, and address
    on the tax form matched the SSR. The system assigned IRS code S to this case so it did not
    post an alert to the recipient’s SSR. SSA records showed staff conducted a redetermination
    in 2011; however, the recipient did not inform the Agency about his resources and continued
    receiving benefits. We estimated a $15,800 overpayment.

SSA did not fully develop the case assigned IRS code G, which indicated the resources exceeded
the tolerance. SSA confirmed with the recipient that he received $227,746 from the sale of
securities, and the Agency suspended his benefits. However, the Agency did not assess an
overpayment. We determined the recipient was overpaid $6,100.

During our audit, we requested that SSA review the 20 cases we identified as having
overpayments. Agency staff informed us that because of critical workload priorities, limited
resources, and diminishing staff, they could not review the cases but would consider any
recommended case reviews at the conclusion of the audit. Therefore, we are recommending that
the Agency review the 20 cases to confirm whether the recipients were overpaid benefits.

Processing of Internal Revenue Service Alerts (A-03-13-13106)                                    5
Based on our findings from TY 2010 IRS data, we would expect similar results if we reviewed
alerts from other TYs. Therefore, we recommend SSA review subsequent IRS TY data to
identify recipients with significant reported income and resources. The Agency should review
these cases and assess any overpayments recoverable under its administrative finality rules.

Internal Revenue Service Code S
As part of the statistical profiling module, SSA assigns weights to certain data elements to
compute a score that identifies recipients who are most likely to be overpaid. Agency officials
informed us that SSA first implemented this profile in Fiscal Year 1996. The data elements
include Federal living arrangements, Federal payment amount, unearned income, overpayments,
and the number of completed redeterminations. The purpose of the statistical profiling module is
to increase the cost-effectiveness of the IRS alert process while reducing the amount of field
office resources required to develop unproductive alerts. SSA ranks the scores from highest to
lowest and assigns IRS code S to cases ranked in the bottom 75 percent. This code indicates the
income and resources are below the tolerance and prevents the system from generating an alert
even though the amount exceeds that allowable for SSI eligibility. Because the system does not
generate an alert, field office staff was not always aware SSI recipients with significant income
and resources were receiving benefits for which they were ineligible.

In TY 2010, SSA systems assigned IRS code S to 203,614 SSI recipients. The IRS reported that
these individuals received about $2.7 billion in income and resources. The income and resources
ranged from $61 to about $1.5 billion.17 As shown in Table 3, the IRS reported that 5,742 of the
203,614 recipients received over $25,000 in income and resources. Furthermore, the
203,614 SSI recipients derived a significant amount of the income and resources from winnings,
prizes, rents, and security trades. Specifically, the IRS reported that 46,900 recipients received at
least $305 million for winnings, prizes, rents, and security trades.

                                             Table 3: IRS Code S
                                                                        Income and
             Monetary Range               Recipients Percent          Resource Amount            Percent
                 $ 61 - 1,000               120,779     59.3              $ 24,244,404               0.9
                1,001 - 5,000                58,390     28.7               132,984,491               4.9
               5,001 - 25,000                18,703      9.2               189,899,436               7.0
              25,001 - 50,000                  2,579     1.3                90,055,568               3.3
             50,001 - 100,000                  1,502     0.7               105,889,935               3.9
          100,001 - 1,500,000,000              1,661     0.8            2,174,204,440              80.0
                    Totals                    203,614         100      $ 2,717,278,274               100




17
  We reviewed the case involving approximately $1.5 billion in resources and found the resources were not
legitimate. An individual falsely reported to the IRS and SSA that he received billions in wages, capital gains, and
dividends in TY 2010. SSA took steps to remove the erroneous wages from its records.



Processing of Internal Revenue Service Alerts (A-03-13-13106)                                                          6
We agree SSA must profile IRS cases to efficiently manage this workload. However, our sample
results show that SSA may need to review cases assigned IRS code S because they could result
in overpayments. Of our 50 sample cases, 17 recipients assigned IRS code S were overpaid
$221,732 in benefits because they received about $4.5 million in income and resources. As
stated previously, the SSI recipients derived the income and resources from the sale of securities
and real property as well as gambling winnings, prizes, rental income, and partnership shares.
Because many of these were one-time payments (that is, gambling winnings and prizes), SSA
needed to pursue these cases within the established timeframe to avoid missing the opportunity
to collect overpayments. Based on our sample results, we believe SSA needs to review its
profiling criteria to determine whether it should alert cases with significant income and resources
as likely to lead to an overpayment and send them to a field office for development.

Internal Revenue Service Codes for Couples
As part of the initial IRS code assignment, SSA considers all SSI couples as below the income
tolerance regardless of the amount of income. For these cases, the system will assign either IRS
code R or X and does not generate alerts. IRS code R indicates a couple has income that exceeds
the tolerance but not resources, and IRS code X indicates a couple has resources below the
tolerance, but income is present. In TY 2010, there were 5,363 SSI couples with income and
resources exceeding $3,000, the amount in resources that can cause a recipient with a spouse to
be ineligible for SSI payments. 18 As shown in Table 4, the IRS reported that these SSI couples
received approximately $67 million in income and resources. The income and resources ranged
from $3,001 to $781,000.

                        Table 4: IRS Couples Cases with Significant Income
                    Number                                  Total Income
          IRS         of           Income       Resource        and           Lowest    Highest
          Code     Recipients      Amount       Amount       Resource         Amount    Amount
           R          4,861      $59,794,909                    $59,794,909    $3,001   $781,000
           X            502        7,200,010     $19,920          7,219,930    $3,002   $450,012
         Total        5,363      $66,994,919     $19,920        $67,014,839

Our review of the couple case with $781,000 in reported income for TY 2010 showed the
individual received gambling winnings from a casino but did not report the winnings to SSA. In
2011, the recipient won an additional $7,100 from gambling, and the system generated an alert
because it assigned IRS code B. SSA determined the recipient had been overpaid $508 based on
the 2011 gambling winnings but did not assess an overpayment for the 2010 winnings. Had SSA
developed this case, it would have determined the recipient was overpaid an additional $13,400.
In addition, there were two couples cases included in our sample population coded with IRS




18
     SSA, POMS, SI 01110.003 A.2 (December 8, 2010).



Processing of Internal Revenue Service Alerts (A-03-13-13106)                                      7
code R. For these two cases, the income received related to gambling winnings at casinos, and in
these cases, we determined the recipients were overpaid about $7,000 and $3,000, respectively.

We asked Agency staff why the system assigned a code that did not generate an alert for SSI
couples who had reported income that exceeded the tolerance. Staff reviewed policy and
requirement documentation as well as conducted a case-level review but could not explain why
the system did not generate an alert for these cases. Based on our sample cases, we believe
excluding income for SSI couples results in the Agency not identifying overpayments.
Therefore, SSA should revise the criteria for SSI couples with income above the tolerance to
allow these cases to be included as part of the profiling model.

Timeliness of Developing IRS Alerts
Because of administrative finality, SSA can only recover overpayments that occur more than
2 years before an alert is generated if the Agency finds that fraud occurred or similar fault
applies. 19 We found that SSA had developed and closed 51,287 (73 percent) of the 70,457 IRS
alerts that were generated before December 2011. However, as of April 2013, 19,170
(27 percent) of these alerts were still pending. These alerts had been pending for a minimum of
16 months. If SSA does not develop these alerts timely, it could miss an opportunity to identify
and collect overpayments because of the Agency’s administrative finality rules. As depicted in
Table 5, the IRS reported that the 19,170 recipients with pending alerts received about
$251 million in income and resources. Further, 6,017 of these recipients received more than
$2,000 in income and resources. The reported income and resources ranged from $2,001 to
$32 million for each recipient.

                                       Table 5: Pending IRS Alerts

Status of        Range of Income         Total                    Total Income
  Alert           and Resources        Recipients       Percent   and Resources   Lowest    Highest
                   $2,000 or less       13,153                      $6,563,356     $61      $2,000
     Open       Greater than $2,000       6,017                    244,622,998    $2,001   $32,085,984
                       Total             19,170           27      $251,186,354
                   $2,000 or less        38,633                    16,931,754      $61       $2,000
 Closed         Greater than $2,000      12,654                    342,698,523    $2,001   $61,595,071
                       Total             51,287           73      $359,630,277
                   $2,000 or less        51,786                    23,495,110      $61       $2,000
     Total      Greater than $2,000      18,671                    587,321,521    $2,001   $61,595,071
                       Total             70,457          100      $610,816,631




19
     SSA, POMS, SI 04070.010 F.4 (September 9, 2011).



Processing of Internal Revenue Service Alerts (A-03-13-13106)                                         8
As previously discussed, SSA develops the IRS alerts as a limited issue or a full redetermination.
We found that 2,040 of the cases had incomplete redeterminations. As shown in Table 6, SSA
systems coded 1,401 cases with an IRS alert as a Profile C HEP redetermination, which
represents cases with the highest risk of likely overpayments. In our report on Supplemental
Security Income High-error Profile Redeterminations, we noted that SSA over-selected Profile C
redeterminations and therefore did not expect to complete all of them. 20 We found that in 2011,
the Agency selected about 1.6 million Profile C HEP redeterminations but completed
approximately 1.4 million. We estimated that had SSA completed the remaining 201,000 Profile
C HEP redeterminations, it could have identified about $228.5 million in additional improper
payments, both over- and underpayments. We recommended that SSA continue increasing the
number of Profile C redeterminations completed each year as resources allow.

                                 Table 6: High Profile Redeterminations
                         HEP Redetermination Codes               Number of Cases
                                        1                                   1
                                        C                               1,401
                                        E                                   4
                                        M                                  14
                                        S                                   1
                                      Total                             1,421


CONCLUSIONS
SSA is missing opportunities to identify and collect overpayments from SSI recipients who have
significant income and resources. We estimate SSA overpaid about $12 million in benefits to
1,014 SSI recipients for whom the IRS reported $100,000 or more in income and resources for
TY 2010. This occurred because the IRS codes SSA systems assigned to these cases did not
alert field office staff that the recipients had significant income and resources that made them
ineligible for SSI payments. Although we did not review any other TYs, we expect that similar
results would occur if we reviewed alerts from other TYs. SSA designed its alert process and
implemented the statistical profiling module in 1996 to minimize the burden on field office staff
and SSI recipients in not spending time and effort developing unproductive alerts. However,
based on our audit results, we believe the Agency needs to review its criteria to ensure it
develops those cases that are most likely to result in overpayments.

SSA did not always develop IRS alerts timely to recover potential overpayments. Our review
showed that 27 percent of the IRS alerts identified in December 2011 was still pending as of
April 2013. We found that SSA had coded 1,401 of these pending cases as Profile C HEP
redeterminations, which indicated the cases were most likely to result in overpayments. Because



20
     SSA OIG, Supplemental Security Income High-error Profile Redeterminations (A-07-12-11263).



Processing of Internal Revenue Service Alerts (A-03-13-13106)                                     9
of limited resources, SSA stated it was not always able to complete these cases, even those coded
as Profile C redeterminations. We made recommendations related to SSA’s profiling system for
redeterminations in a prior report.

RECOMMENDATIONS
We recommend that SSA:

1. Review the 20 sample cases we determined had overpayments and the remaining 2,485 cases
   from the sample population to ensure benefits are appropriately adjusted.

2. Based on the results from the review of the TY 2010 cases, assess whether the IRS data for
   TYs 2011 and 2012 should be developed for those cases where there is significant income
   and resources reported.

3. Review its existing statistical profiling model to determine whether cases with significant
   income and resources are more likely to lead to an overpayment and should be sent to a field
   office for development.

4. Revise the profiling criteria for SSI couples with income above the tolerance to allow these
   cases to be included as part of the profiling model to determine the probability of an
   overpayment.

AGENCY COMMENTS
The Agency agreed with our recommendations. See Appendix D for the full text of SSA’s
comments.




Processing of Internal Revenue Service Alerts (A-03-13-13106)                                     10
                                        APPENDICES




Processing of Internal Revenue Service Alerts (A-03-13-13106)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

•   Reviewed applicable Federal laws and sections of the Social Security Act and the Social
    Security Administration’s (SSA) regulations, policies, and procedures.

•   Reviewed applicable Program Operations Manual System policies and operating instructions
    relevant to our audit.

•   Reviewed Office of the Inspector General reports, Government Accountability Office
    reports, and other relevant documents.

•   Reviewed the SSA Final Interim Report – Supplemental Security Income Record (SSR)
    Maintenance System, Internal Revenue Service (IRS) 1099 Wage Model, and other SSA
    internal reports.

•   Reviewed SSA’s Office of Earnings, Enumeration and Administrative Systems Division of
    Technology Services and Exchanges, Functional Requirement for Tax Year (TY) 2005
    Supplemental Security Income (SSI) IRS 1099 Interface, and the Office of Quality
    Performance’s (OQP) Supplemental Security Income Redeterminations Change Rate Study
    for Fiscal Years 2010 through 2012 to obtain information on redeterminations and limited
    issues data.

•   Interviewed individuals from SSA’s OQP and Office of Systems to obtain information about
    SSA’s statistical model and processes for profiling and selecting IRS alert case codes.

•   Obtained and reviewed TY 2010 IRS data and found that 684,946 recipients had received
    approximately $3.4 billion in income and resources. Further, 2,535 of these recipients had
    received $100,000 or more in income and resources, totaling $2.6 billion.

            o Randomly sampled 50 cases from the population of 2,535 recipients who received
              $100,000 or more in income and/or resources, totaling about $13.7 million. The
              IRS reported that the recipients received income and resources ranging from
              $100,022 to approximately $1.3 million.

• Computed overpayments based on the available information in SSA’s records and
    LexisNexis. We obtained and reviewed various SSA internal systems, such as the Numident
    record, to verify the recipient’s first and last name as well as date of birth; SSR and Master
    Beneficiary Record to verify benefit and income/resource information; Modernized
    Supplemental Security Income Claims System, SSI Diary Workload Control Application
    Online Retrieval System, and the Claims File Records Management System to review
    documentation and correspondence sent to recipients.

We conducted this audit at the Philadelphia Audit Division, Philadelphia, Pennsylvania, from
April through June 2013. We tested the data obtained for our audit and determined they were


Processing of Internal Revenue Service Alerts (A-03-13-13106)                                    A-1
sufficiently reliable to meet our objective. The entities audited were the Offices of Quality
Performance, Systems, and Operations. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.




Processing of Internal Revenue Service Alerts (A-03-13-13106)                                   A-2
Appendix B – SAMPLE RESULTS
To conduct this review, in December 2011, we obtained Tax Year (TY) 2010 Internal Revenue
Service (IRS) data, which showed that approximately 685,000 Supplemental Security Income
(SSI) recipients had received about $3.4 billion in income and resources. We determined that
2,535 of these recipients received $100,000 or more in income and resources. We used
$100,000 as a cut-off because this amount seemed excessive for recipients who were receiving
SSI payments. Substantial income and resources could result in termination of a recipient’s
eligibility for benefits.

Using the population of 2,535 recipients with $100,000 or more in income and resources
reported by the IRS, we randomly selected 50 recipients with about $13.7 million in reported
income and resources. Of the 50 sample cases reviewed, we identified 20 recipients who were
overpaid $237,125.

                               Table B–1: Population and Sample Size
                                                                               Number of
                                    Description
                                                                              Beneficiaries
                Population Size                                                    2,535
                Sample Size                                                            50

                        Table B–2: Number of Overpayments Office of the
                                  Inspector General Identified
                                                                            Number of
                                 Description
                                                                           Beneficiaries
                Sample Results                                                     20
                Point Estimate                                                  1,014
                Projection - Lower Limit                                          721
                Projection - Upper Limit                                        1,330

                              Table B–3: SSI Projected Overpayments
                                                                               Improper
                                   Description                              Payments from
                                                                                 Alerts
                Sample Results - Dollars Improperly Paid                          $237,125
                Point Estimate - Dollars Improperly Paid                      $12,022,216
                Projection - Lower Limit                                        $7,506,882
                Projection - Upper Limit                                      $16,537,549
               Note: All statistical projections are at 90-percent confidence level.




Processing of Internal Revenue Service Alerts (A-03-13-13106)                                 B-1
Appendix C – INTERNAL REVENUE SERVICE CASE CODES
Through the Supplemental Security Income/Internal Revenue Service (IRS) interface, the IRS
provides the Social Security Administration (SSA) with unearned income data from its records.
SSA processes these data and determines whether the dollar amount the IRS reported exceeds
certain tolerances. SSA assigns an IRS code for those cases that meet, exceed, or fall below the
tolerances. The system generates an alert and posts it to the Supplemental Security Record for
cases where the income and/or resource exceed the tolerances SSA sets. 1 Table C–1 summarizes
the IRS codes assigned for Tax Year 2010 IRS data.




1
    SSA, POMS, SM 02002.430 (March 9, 2010).



Processing of Internal Revenue Service Alerts (A-03-13-13106)                                C-1
                                                    Table C–1: Tax Year 2010 IRS Alert Codes

                                                                                                           Total Income
IRS                                          Alert          Total          Total Income   Total Resource   and Resource
Code       IRS Code Description            Generated      Recipients         Amount          Amount          Amount         Lowest     Highest
 K     Income below                            No              72,892       $20,207,235                      $20,207,235        $1         $1,000
 L     Resource below                          No             260,390            84,346       $7,054,083       7,138,429        $1       $380,008
 M     Income and resource below               No              11,241         1,733,019          284,235       2,017,254        $2         $1,059
       Couple case income exceeds;
 R                                             No                 21,463     74,785,244                       74,785,244        $1       $781,000
       no resource
       Income & resource exceed;
 S                                             No             203,614       307,950,769    2,409,327,505    2,717,278,274      $61 $1,456,183,468
       scored to low
       Couple case resource below; no
 T                                             No                 42,103                       1,433,122        1,433,122       $1          $100
       income
       Couple case resource below;
 X                                             No                  2,786      8,484,430          102,612        8,587,042       $2       $450,012
       income present

 B     Income exceeds                          Yes                14,825     86,321,054                       86,321,054    $1,001       $300,000
 C     Resource exceeds                        Yes                37,410                     146,777,681     146,777,681       $61     $6,118,041
 D     Income and resource exceed              Yes                 1,677     12,833,089       51,262,544      64,095,633    $1,079     $2,380,390
       Income exceeds; resource
 F                                             Yes                 1,297      7,614,320           31,189        7,645,509   $1,021       $176,234
       below
       Resource exceeds; income
 G                                             Yes                 5,101        654,750       53,721,268      54,376,018       $63     $6,276,299
       below
       Couple case resource exceeds;
 W                                             Yes                 8,294                     172,127,900     172,127,900      $101    $61,595,071
       no income
       Couple case resource exceeds;
 Y                                             Yes                 1,853      4,584,844       74,887,992      79,472,836      $104    $32,085,984
       income present
                    Total                                     684,946      $525,253,100   $2,917,010,131   $3,442,263,231




  Processing of Internal Revenue Service Alerts (A-03-13-13106)                                                                            C-2
           Appendix D – AGENCY COMMENTS




                                             SOCIAL SECURITY

MEMORANDUM


Date:      December 2, 2013                                                        Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Processing Internal Revenue Service Alerts for
           Supplemental Security Income Recipients” (A-03-13-13106)--INFORMATION

           Thank you for the opportunity to comment on your revisions to recommendation two. Please see
           our attached comments. We agree with the revised recommendation.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Processing of Internal Revenue Service Alerts (A-03-13-13106)                                   D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"REVIEW OF PROCESSING INTERNAL REVENUE SERVICE ALERTS FOR
SUPPLEMENTAL SECURITY INCOME RECIPIENTS" (A-03-13-13106)


Recommendation 1

Review the 20 sample cases we determined had overpayments and the remaining 2,485 cases
from the sample population to ensure benefits are appropriately adjusted.

Response

We agree. We plan to review the 20 cases OIG determined have overpayments by the end of
calendar year 2013. Based on the results of our review, we will determine if it is beneficial to
review the additional 2,485 cases.

Recommendation 2

Based on the results from the review of the tax year (TY) 2010 cases, assess whether the IRS
data for TY 2011 and 2012 should be developed for those cases where there is significant income
and resources reported.

Response

We agree. Once we complete the TY 2010 case review, we will determine if we should perform
a review of the data for TY 2011 and 2012, and take action.

Recommendation 3

Review its existing statistical profiling model to determine whether cases with significant income
and resources are more likely to lead to an overpayment and should be sent to a field office for
development.

Response

We agree. By September 30, 2014, we plan to complete our review of the existing statistical
profiling model to determine whether we can refine our model to: 1) help identify cases with
significant income and resources, and 2) determine if these cases are more likely to incur an
overpayment. We will send potential overpayment cases to our field offices for development.

Recommendation 4

Revise the profiling criteria for SSI couples with income above the tolerance to allow these cases
to be included as part of the profiling model to determine the probability of an overpayment.




Processing of Internal Revenue Service Alerts (A-03-13-13106)                                      D-2
Response

We agree. In fiscal year 2014, we plan to evaluate the profiling criteria for Supplemental
Security Income couples with income above the tolerance to determine whether we should
include these cases as part of the profiling model to determine the probability of an overpayment.
We will revise the profiling criteria, if necessary.




Processing of Internal Revenue Service Alerts (A-03-13-13106)                                 D-3
Appendix E – MAJOR CONTRIBUTORS
Cylinda McCloud-Keal, Director, Philadelphia Audit Division

Carol Madonna, Audit Manager

Walt Mingo, Auditor-in-Charge

Luis Ramirez, Audit Data Specialist

Renalda Stallworth, Senior Information Technology Specialist

Joseph Cross, Information Technology Specialist

Brennan Kraje, Statistician




Processing of Internal Revenue Service Alerts (A-03-13-13106)   E-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
